No. 19-261

 

 

In the
Supreme Court of the Anited States

Steven T. Waltner and Sarah V. Waltner,
Petitioners,
v.
Commissioner of Internal Revenue,
Respondent.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

Se eee
CERTIFICATE OF SERVICE OF
PETITION FOR REHEARING

OF PETITION FOR WRIT OF CERTIORARI

°

DONALD W. WALLIS
Counsel of Record
UPCHURCH, BAILEY & UPCHURCH, P.A.
780 N. Ponce de Leon Blvd.
Post Office Drawer 3007
St. Augustine, FL 32085
(904) 829-9066
dwallis@ubulaw.com

Counsel for Petitioners
Steven T. Waltner and Sarah V. Waltner
CERTIFICATE OF SERVICE

On November 4, 2019, the undersigned caused the Respondent Commissioner of
Internal Revenue to be served, pursuant to 29.4(a), by depositing into the U.S. Mail, postage
pre-paid, three (3) copies of the Petition for Rehearing of Petition for a Writ of Certiorari of
Steven T. Waltner and Sarah V. Waltner to Respondent’s counsel:

Solicitor General of the United States
Department of Justice

950 Pennsylvania Ave. N.W., Room 5614
Washington, DC 20530-0001

In accordance with Rule 29.5 of the Rules of the United States Supreme Court, this is
to certify that all parties required to be served in this matter have been served.

I declare under penalty of perjury under the laws of the United States of America
that the foregoing is true and correct.

Executed this 4" day of November, 2019.

Sarah Van Hoey
